a ^ S C>) /tJ:
V

No-____ 6,
tf'X

..■

---"

“ -•-'**

FILED
FEB 18 2021
OFFICE OF THE CLERK
SUPREME COURT U.S.

IN THE
SUPREME COURT OF THE UNITED STATES

ELE\mrtTU CIRCUIT
OA\J£- VmnUGH~T — PETITIONER
(Your Name)
vs.
STATUE OP TrL-OftADA

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

FLflKAfrA TaRST \7tSTRlC?T COURT OC APPEAI___________________
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

(Your Name)
&M<3£fe

C£>fy^<lT[©r-4AA- 3&tfX»TUTlOr4

ZQ70lg> U«S. ^WGx\A^A\j ^0
(Address)

yvfe.^*r

Ar\>^£:Z0A

2>ZQ87

4

T'Lor.i'PA .

(City, State, Zip Code)

(Phone Number)

V
O

I •

V

!■

QUESTION(S) PRESENTED

lMPer

What carcovv\stAHcj&s Does a RotO- crwwxRau

Stop ArAP* THE SuftSEQu^T OBSERVATlOR
THROUGH THE- WlH^OW OF STOppeP \/eRvCAJ£. ftt'JEAL'

tragic

iRG* a C>|LmPR.v(LAU 0>RO\RR ClQA^TrE <aWE R\SE
TO PRO&AELE. CAUSE VO SEARCH A OE-RSoRAL-, REA'
SoRABLE EXC^ECtEP ZORE OF FRWAC-y ?

Poes a traa\_ aXovg^e V^ePart Fro*y\ v-us or her roue,
AS A rrotrau ARe>'TER &i ex Parte aRP Soa S?oRte
calling,

ARP

A \aJ\tRESS FOR THE STATE PROSeCUxoR

(^\FoRCAT\RGi A p\EARfAQ y VIOLATES THE

pernroReR's corstxtutvoHau RvGHt of Poe fk.O'
cess uRPer the \4-^ A<v\erPaaert' of the uRrreb
states

CoHSt\TOTA Or\ P
ft

ft ft

SI •

*

LIST OF PARTIES

All parties appear in the caption of the case on the cover page.
It ] All parties do not appear in the caption of the case on the cover page. A list of
f\ all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

•

STATE- OF FUXfOPA
Pua\i4v\TF

V/.

cAse^o: 2018- cf - fc>244?
FcuRXvA

CaR.CjOvT' PUVA\- COut^Ty )
A.

<K>pQivvet»rr

*

state of

FloktPA

V,

2.i/ 201*1

FR.epF.Rtcx, Palf V^uQtrVr

APPFAL^o: \P2C-03RO
FvRST V-^vSTT-vC^T Cou RT~ OF Af^FAL.
Fa_o

?A t

^VJP'GsMFrAT Fr^tF-ReP «40>PeM©eR 20, 2020

n\.

4

TABLE OF CONTENTS

t

OPINIONS BELOW
JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT

IX

CONCLUSION

2&

INDEX TO APPENDICES
APPENDIX A C%C.lSlOrA OF THE. STATE COURT OF APPFAL
APPENDIX B De.C-i3\Oh4 OF TV\F- STATE. TRIAL COURT

APPENDIX C *tHF. 'STATE- TRvAL COURTS
Ai^D RuL\MGi
APPENDIX D <V\OT\ OrA TO Suff>RF.SS (^TIOmer]

APPENDIX E *"hA£-TRAi^S CR\

pT*5 ‘TO CTV\^
\P^n)TT\ A^\j
V\£AR\t4Gj TOR- A\OTTOr^ to SoppRHSS

APPENDIX F

C*)

I Vo

TABLE OF AUTHORITIES CITED

CASES
CMAPLA^ V. STARVE. , S$\

PAGE NUMBER
BBjf12-/ 6t-Aj-V^88- J

c*\ASr»4e v* a^ooiwe, l>2*1

2*15, (fla.

/s.ri^e.i^'Soa M.- Statie. y 552 so-2d 4 (pt-A.^-d
VAVU_S M. STATE-, L>2«\ SO.zd t52 {pLAv^or.to4

\%

*** V*^*l5")

15

'^88

tST^cA

vi* Oaufcm^i^'A , H^U^S» 128,lBU>

, UOJ.CA. 25o\ (Wo)

M*

KjsMote Vi, 5XATT& , S-21 SO. id 10^4-

2-d \0S5 Of=LA. H83)

18

UWvi4G.Srot>i Vi- StATE-, 44\ So.

; U3 5.c4. 2130 6^3)
lWl4i4e**0PA V. \AcX.eR304 , 508 U,S. 3U*, 315"
3d <\\\ 6flA - 3d. frcA 2010)
MX- Vl , S-rAxe, 4T 5ot>48 so.zA bloT.loT# CnA*W4-)
Xor-i^s v<. Stabs.,

STATUTES AND RULES

O-S-

C-OiviSTvYOTAOKi

4-th Aave.^

3

5^ Am^.m PAY£-M T"

3

jX'tH

3

AfAT^HPAVcLH 4"

\/.

r*qi

PoPPLe S. ST7VTC., lo2U So.2<1 185-188

OTHER

f4s»

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix A to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the
appears at Appendix

caR.CxnT' .
£>__ to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

court

to

JURISDICTION

[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was--------------------------------[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
, and a copy of the
Appeals on the following date: ----------------order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date)
(date) on
to and including _
A
in Application No.
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ t For cases from state courts:
The date on which the highest state court decided my case was r4o\E.<v\eg-£. ZQf£DZo
A copy of that decision appears at Appendix _A-----[ ] A timely petition for rehearing was thereafter denied on the following date:
, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) in
(date) on
to and including____ lsi/V
Application No. -—A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

%

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

THe. FoORTV\ 6+^ A<V\ei49lWE.r4-r
UlMlTeP STATES

OF TVA^-

COi4ST\TOTiOi4

'TvVE- RXCaHX of TV\e P&OpLe'TO ©S6 SFCURe 354 3VVetR
ffe-RSOMS, vAooSF. t PAPeR3 , AMP 'eFPeCTS, A^A'RST
LiMReASOr4Ae>Le SeARCMeS AMJ? SE\2uR«, SvAAUiAot

e>e YioLArep,

amp iAo

Warrants Sfvwjl xssu-e ,

eur uPOM PRO&A&Le CAOSF. , SoPPoRTFP G>y OAtv\
OR AFFvR<v\AtvOi4 , AMP pARTi COLARuy L'ksCRv&lMG*

-rue PLACJE 'TO ae SFARCJt-NeP. AiMP PfeRSCrAS OR
TV\»i4€iS *TO e>e SeiZT^P,

‘TH'E-

Fifth (s^

amp

FouRreEMTH (W^ A*\eMP-

<V\eMT OP TAF OivUTVlP STATRS COi4St\TL>TIOi4

i4oR SVVALL AMY STATR pepRw/R AMY PeRSoM OP UFF-,
l_V<=>F-RTY; OR PROPRRry, WVTVAOO-r Poe. PROOF'S5 OF
LAW -

3.

STATEMENT OF THE CASE
In the Fourth Judicial Circuit, Duval County, Florida, Case Number: 2010CF-6246, Frederick Dale Knight, Defendant vs. State of Florida, filed a motion to
suppress, (on December 17, 2018), evidence that was illegally obtained by the
Jacksonville Sheriffs Office (Agent) Derived from a pretextual traffic stop and
subsequently, an arbitrary search of the Defendant’s vehicle, without a complete,
certain, or specific observation of the alleged marijuana, through the vehicle
window, at approximately 12:30 am. (Hunch)
This was a violation of the Defendant’s/Petitioner’s legitimate expectation of
privacy, protected by the Fourth Amendment of the United States Constitution
from an unreasonable intrusion into Petitioner’s expected zone of privacy; without
the prerequisite observed incriminating evidence through the pre-intrusion
doctrine.
On February 8, 2019, a hearing on the Petitioner’s motion to suppress was
held. The following pertinent excerpts from the officer’s testimony:
OFFICER DAIGLE TESTIMONY
A traffic stop was conducted for running a stop sign at 12:19 am. (R. 48-52)
No other behavior or driving drew his attention or no smoke was coming from the
vehicle nor under the influence of any drugs or alcohol. (R. 56-58)

H.

>

Daigle completed running the license and came back to the vehicle without a
ticket. The stop was complete but was waylaid by Officer Deconti informing about
a marijuana blunt on the back floorboard under the seat. (R. 49-60) Officer Deconti
told him seeing only a blunt cigarette. (R. 61)
“It was wrapped like a cigarillo”. (R. 5, R. 61) No odor of marijuana
detected. (R. 59) All he could see is a brown little roach. (R. 62) He could not
really tell it was marijuana. Nothing led him to believe the item was contraband or
marijuana. (R. 5, R. 63) Daigle gave two (2) complete different descriptions, i.e.,
“more of a green leafy substance”, “he testified it could have been bought out of a
7 - Eleven Store. (R. 77-78) There were no other items on the floorboard in the
back seat. (R. 5, R. 36, R. 64) No lights in the vehicle were on. (R. 65)
Daigle denies giving different description of the item, via. color, shape, size
under oath. (R. 5, R. 69, R. 78) No item of marijuana submitted as a result of this
case in property.
Daigle was shown pictures, provided by the State, taken at the scene, book
bag and a cigarette, he testified no green was coming from it. (R. 82-84)
OFFICER CULLEN’S TESTIMONY
Mr. Knight’s (Petitioner) stop response was appropriately, ordinary and
cool, cooperative encounter. (R. 96) No smell of marijuana. Four officers engaging

5.

with Knight at traffic stop. (R. 97-98) Cullen claims he was the first person to
notice marijuana/ cigarette. (R. 56, R. 61, R. 88)
On cross examination he observed a blunt/cigarette, it appeared to be hand
rolled or wrapped instead of machine wrapped as a cigarette would be. (R. 101) He
seen a green bud sitting nexted to it. (R. 38-39, R. 6 Deconti’s statement of his
search requesting a supplement property storage card item #13) The bud was about
the size of a tip of a pen. (R. 56) He testified items in the photo is perfectly rolled
like a machine did it. (R. 108-109, R. 37 photo taken on hood of car, requesting
supplement photo disc R. 110) It looked like a cigarette out of a 7 - Eleven
grocery store.
OFFICER DECONTI’S TESTIMONY
When someone is arrested for possession of marijuana the evidence is placed
in the property room. (R. Deconti’s statement, R. 114 requesting a supplement
property storage card item #13 withheld from R.O.A. Exhibit 2). He stated the first
photo presented, “was the hood of the car, not the floorboard backseat”. (R. 6
Deconti statement R. 115-116 requesting supplement disc of evidence).
On cross-examination Deconti testified that the characteristics of marijuana
roach is typically “flat” and burned on one end. (R. 37, R. 119-121) He agreed with
defense counsel that the item in the photo,'State Exhibit, is perfectly machine razor
blade cut cigarette, that the spec was placed on the hood, it was not collected in

b-

search of the vehicle. The item in photo would not have given officer’s “reasonable
suspicion” or an “incriminating nature” to think it was marijuana to warrant a
search. He collected the item in the photo a “cigarette”. (R. 6 State statement R.
122-123, requesting supplement property storage card withheld from R.O.A.
Exhibit 2 item #13)
Defense counsel shows the next photo of the back seat floorboard revealing
a back pack on the floor mat looking into the angle he would be in this position. He
(Deconti) then agreed that all he saw was a tiny brown something, “not
incriminating nature”, say, “yes, I’m sorry and not being truthful. (R. 124-125)
Defense counsel argues this was an “unreasonable/ unlawful intrusion” on
Mr. Knight’s expectation of privacy and a Fourth Amendment violation. Officer
Diagle and Cullen following Mr. Knight (Petitioner) in an urban residential
community, that he rolled through a stop sign into a five (5) lane 45 MPH
expressway with two (2) police cars directly behind him, not under the influence or
impaired on drugs. The only credible testimony was a brown object, that
“observation/identification” such as this that appears “innocuous or innocent

5? U

not

incriminating nature” on their face, the requirement is that it need be more to be
immediately apparent/incriminating nature as contraband
Multiple reasons: Alleged observation (pretext), Daigle holding license, four
(4) officers present on a traffic stop for a stop sign “show of authority” and demand

7.

Mr. Knight out of his car intimidating him at 12:00 am at night alone. Fourth
Amendment analysis is to have a well founded articulate what was collected. (R.
128-131) State counsel argues unreasonable facts to the evidence, (R. 6 Deconti’s
statement, R. 124-125, R. 115, R. 132-135, R. 13 ticket wrote 1:36 am) That in
cannabis officers training and experience can identify its unique look, the item in
photo and evidence gives right under “plain view doctrine”. (R. 135)
On June 21, 2019, the Honorable Marianne Aho, rendered her opinion,
ruling in favor of the State of Florida, denying the Petitioner’s Motion to Suppress.
(R. 259-278) The order followed Denying the Motion to Suppress. (R. 191)
Judge Aho: “So based upon the totality of the circumstances and all of this
testimony that I find to be credible, I find it was a valid stop. I find that the request
to step out of the vehicle, based upon the drug investigation, was certainly
reasonable and permissible under state and federal law for the reasons I’ve placed
on the record”.
APPEAL
The Defendant/Petitioner takes an appeal, the trial court’s denial of the
motion to suppress, to the First District Court of Appeal, Florida, Case No.: 1D200390.
The Petitioner submitted an Initial Brief 26 pages in length, in the month of
August 2020, to this respective court. A synopsis of the Brief follows:

“A minor traffic violation cannot be used as a pretext to search for evidence
of crimes”, the logic of a person running a stop sign with two (2) police cars
behind him a (5) five lane, 45 MPH expressway at 5 MPH and they are not under
the influence or impaired. (Kehoe v. State, 521 So.2d 1094) “This court observed
that when police realize that they lack a founded suspicion they attempt to justify a
stop on some traffic violation,” Id at 1097. The contested testimony at the
suppression hearing was that Mr. Knight vehicle failed to make a complete stop at
a stop sign on Kenknight Drive, (R. 87) A residential urban community that there
officers patrolled 12:00 am at night (R. 87-88, 91 stopping Mr. Knight at 12:19 am
but not writing a ticket until 1:36 am (R. 13) even after testifying that Officer
Daigle was stopped about the claim of marijuana. (R. 49, R. 60) Daigle did not
come back with a ticket but also did not write a ticket until 1:36 am (R. 13) after
the arrest. This shows the trial court did error in finding the stop was valid. (Hills v.
State. 629 So.2d 152 (Fla. 1st DCA 1993))
A significant identifying characteristics of a police citizen encounter is that
the officer cannot hinder or restrict the person(s) freedom to leave or freedom to
refuse to answer inquiries and the person may not be detained without a well
founded articulable suspicion of criminal activity. (Popple v. State, 626 So.2d 185188)

9.

Mr. Knight asked to call his attorney before he answered anything because
the officers had no justification for the continued restraint/detainment. Four
officers engaging with Mr. Knight, with their words and actions, was a “show of
authority” in stark contrast to a non-criminal traffic stop, requiring only one
officer.
In Mr. Knight’s case there is a pretextual traffic stop, with only a cigarette
collected as evidence. To prove officers had probable cause for search and seizure
the State must present more than a naked subjective statement of a police officer’s
who’s “feeling” based on “experience”, that an accosted citizen is committing a
crime i.e., the pre-intrusion observation of the articulated object was not marijuana,
warranting an unlawful intrusion into Petitioner’s expected zone of privacy. (R. 3739, R. 124-125)
Daigle agreed that item in photo has no incriminating nature. Deconti saw
what we saw in the photos, “perfectly cylindrical like a manufactured end
cigarette”, (A1 Capone cigarette with a filter on one end) (R. 62-63, R. 71, R. 7778, R. 115-116, R. 122-123, R. 124-125) Officer Cullen alleged seeing a bud the
size of a tip of a pen, in the dark, through a window, under the backseat with a
large book bag on the floor mat and “him only” seen this observation. (R. 56, R.
61, R. 88, R. 101, R. 38-39, R. 108-109) Mr. Knight (Petitioner) at the time of the
“non-criminal traffic stop”, gave ho threat to the officer’s safety concerns, license

ID.

and car clean, no smell of marijuana, not under the influence or impaired, no
warrants and not under arrest. Clearly we have an unreasonable/unlawful intrusion
into Mr. Knight’s Fourth Amendment reasonably expectation of privacy.

il.

REASONS FOR GRANTING THE PETITION
The Fourth (4) Amendment of the United States Constitution protects the
people from an abusive government by guaranteeing the people of the United
States to be secure in their persons, house, papers, effects against unreasonable
searches and seizures, shall not be violated.
In this case at bar, the Government entity (Jacksonville Sheriffs Agents)
blatantly and arbitrarily conducted a non-criminal traffic stop and an unreasonable
search and seizure of Petitioner’s vehicle based on an unarticulated hunch; not
immediately apparent of the object/item viewed through the window of Petitioner’s
vehicle was contraband or incriminating evidence of wrongdoing. Jones v. State.
648 So.2d 669, 678 (Fla. 1994). In unison to the initial traffic stop three other
police officers were on the spot engaging with the Petitioner (Mr. Knight) at 12:19
am. These circumstances give light to a pretextual stop as a guise to probe further
with unfounded suspicion for incriminating wrongdoing.
THE TESTIMONY AT THE MOTION TO SUPPRESS HEARING
Officer Daigle initiated the non-criminal traffic stop and ran Mr. Knight’s
Driver’s License, coming up clean, he did not write a ticket for a traffic violation at
the scene as he was enrooted back to Mr. Knight’s vehicle. During the motion to
suppress hearing, Officer Daigle testified that Mr. Knight’s behavior was normal,
no odor of marijuana smoke, nor was Mr. Knight under the influence of any drugs

1z.

or alcohol. At this point it was a normal traffic stop. Officer Deconti arrived on the
scene and started looking through the back window of the Petitioner’s vehicle and
observed two black backpacks and informed Officer Daigle of a marijuana blunt/
cigarette on the back floorboard under the seat. (12:19 am) In contrast, Deconti
testified at the motion to suppress hearing that the characteristics of a marijuana
roach are typically “flat and burned on one end” and then agreed with Defense
Counsel that the item in the photo (State’s Exhibit) is perfectly machine razor
blade cut cigarette”. “The spec that was placed on the hood, it was not collected in
search of the vehicle. Deconti also testified “the item in the photo would not have
given Officers reasonable suspicion” or “incriminating nature” to think it was
marijuana to warrant a search of the collected item the photo, a cigarette. Defense
Counsel shows next photo to Deconti of the back seat floorboard revealing a back
pack on the floor mat. Deconti then agreed that all he saw was a tiny brown
something; “not incriminating nature”, stating “yes I’m sorry”.
Officer Daigle gave two (2) complete different descriptions i.e., “more of a
green leafy substance” he testified it could have been bought out of a 7 — Eleven
store. Daigle testified no lights in the vehicle were on at 12:19 am.
Daigle denies given different descriptions of the item via. color, shape, size
under oath. Daigle: “No items of marijuana were submitted as a results of this case,

13.

in property”. Daigle looks at photo taken at scene, book bag and a cigarette; he
testified “no green was coming from it”.
Officer Cullen testified “no smell of marijuana”. He observed a
blunt/cigarette, “The bud was collected about the size of a tip of a pen”. “The item
in photo is perfectly rolled like a machine did it”. “Mr. Knight’s response to the
stop was appropriately ordinary and cool, cooperative encounter”.
The Trial Judge Aho, erroneously finds these Officer’s testimony credible,
finding the stop valid and finding the request to ask the Petitioner to step out of the
vehicle based upon unfounded suspicion, no incriminating evidence for a drug
investigation, reasonable under state and federal law.
The decision in this court is in conflict with the decisions of other appellate
courts the authorities are as follows:
In M.L., A Juvenile. Appellant v. State of Florida. 47 So.3d 91 l(3rd DCA
2010) Officer Garapino was responding to a call to recover a missing juvenile.
Upon locating the Juvenile, M.L., he saw a multi-colored pipe in a red bag about
an arm’s reach from M.L.. Officer Garapino picked up the pipe in the red bag. He
heard M.L. state “it’s my pipe, it’s not hers”. At that point he placed M.L. in
handcuffs and escorted him to the police car. The pipe had marijuana residue. This
court ruled the State failed to present evidence that it was immediately apparent to
the officer that the partially or completely concealed pipe in the bag constituted

IH.

evidence of a crime or illegal paraphernalia, without that, the officer had no right
to seize the pipe and no probable cause to arrest M.L..
Chavlan v. State of Florida. 531 So.2d 88, 92 (Fla. 1988) In Chaplan, an
automobile accident occurred in front of the Hollywood Florida Police Department
involving Chaplan. An officer from the station approached the scene and assisted
Chaplan with filling out an accident tow slip for the tow driver. When the officer
looked into the front windshield of the car for the Vehicle Identification Number,
he observed what he described as “several small rolled burnt cigarette wrappings”
on the floorboard. The officer concluded that these were marijuana cigarettes, open
the door and discovered baggies of marijuana and cocaine. Petitioner was then
arrested and charged with two counts of possession of narcotics. The police officer
testified that he did not know what was contained within the partially burned
cigarette papers he observed through the windshield of the petitioner’s car. The
court ruled, “that the mere observation of an opaque container [such as partially
burned cigarette paper], without more, cannot constitute probable cause”. There
must be at least an additional objective and reasonably specific element justifying
the State agent’s interference of wrongdoing.
In Anderson v. State of Florida, 532 So.2d 4 (2 DCA 1988), the defendant
was stopped for speeding and arrested for possession of drug paraphernalia after an
officer observed a cut straw inside a motor home. The officer saw no other

is.

evidence of criminal activity. The Anderson Court found a lack of probable cause
to enter the vehicle and seize the straw as contraband.
Minnesota v. Dickerson. 508 U.S. 366, 375, 113 S.Ct. 2130, 124 L. Ed. 2d
334 (1993) (If, however, the police lack probable cause to believe that an object in
plain view is contraband without conducting some further search of the object, i.e.,
if it’s incriminating character [is not] “immediately apparent”, “Horton v.
California. 496 U.S. 128, 136, 110 S.Ct. 2301, 110 L. Ed. 2d 112 (1990)] The
Plain-View Doctrine cannot justify its seizure”.)
The foregoing case laws are analogous to this case. Mr. Knight on the night
he was stopped for a non-criminal traffic stop, i.e., allegedly a stop sign violation,
exhibited normal behavior, no odor of marijuana smoke, cool and cooperative
encounter and no furtive movements. Officer Daigle initiated the stop. While
running Mr. Knight’s Driver’s License three officers engaged Mr. Knight and his
vehicle. Officer Deconti started looking in the back window of the Petitioner’s
vehicle and allegedly seen a marijuana cigarette on the back floorboard under the
seat at 12:19 am. At the suppression hearing Deconti recants and said “The item in
the photo would not have given officers “reasonable suspicion” or “incriminating
nature” to think it was marijuana to warrant a search of the Petitioner’s vehicle.
Deconti, at the hearing, said he saw a tiny brown something, no incriminating
nature, stating “Yes, I’m sorry”.

|t>*

Officer Daigle gives two different descriptions of the item “more of a green
leafy substance” and Daigle looking at photo taken at scene; he testified “no green
was coming from it”. Both Deconti and Daigle stated no items of marijuana were
submitted/collected as a result of this case.
Officer Cullen testifies, “No smell of marijuana, the item in the photo is
perfectly rolled like a machine did it”. While Deconti and the other officers
involved failed to present evidence/testimony that it was immediately apparent that
the object, looking through the window, on the floorboard, under the seat, at 12:19
am constituted evidence of illegal substance i.e. marijuana, and without that, the
officers had no right to search the vehicle, a zone of privacy, reasonably expected
and protected by the Fourth Amendment from intrusion.
Judge Aho’s ruling and findings based on the testimonies given at the
hearing is in conflict with the precedent case laws - decisions of the above cited
Appellate and Supreme Courts, State and Federal. (Erroneous Decision)

JUDGE AHO RECEDED AWAY AND STRAYED
FROM ROLE AS A NEUTRAL ARBITER
Judge Aho’s actions during the Motion to Suppress Hearing exhibited
partially for the States benefit to reopen their case, after resting, deprived Mr.
Knight one of the essentials of due process, an impartial magistrate.
Whether intentional or not, Judge Aho gave the appearance of particality by
taking sua sponte actions which benefited the State. Such sua sponte action

n.

deprived Mr. Knight one of the essentials of due process. A judge cannot be both a
judge and attorney searching out facts favorable to a party without abandoning his
or her judicial neutrality. The trial judge must not enter the fray of giving tips to
either side. This impartially conflicts with Livingston v. State ofFlorida. 441 So.2d
1083 (Fla. 1983); Chastine v. Broome. 629 So.2d 293, 295 (Fla. 4 DCA 1993) The
excerpts from the record follow on the next page, in support.
EXPARTE - SUA SPONTE - BIFURCATION
Judge Aho’s actions during the Motion to Suppress Hearing exhibited
partiality for the States benefit to re-open their case, after resting, deprived Mr.
Knight one of the essentials of Due Process, an impartial magistrate.
Excerpts from the “Motion to Suppress” Hearing;
From Judge Aho: “I think it is important that I understand what the argument is”,
passing the hearing until February 11, 2019 for final argument. On February 11,
2019, the court opened up stating, “The argument is almost complete”, we are just
addressing open view and/or plain view”. (R. 138-139, R. 172-176, See Motion to
Suppress ROA) “There was no testimony to resisting or provoked flight/move for
safety, no law in Florida allows the court to rule on just argument”, “Do you wish
to call another witness?” State’s response, “They did not wish to call anymore
witnesses”. The Court in a second sua sponte asked, “But you are not asking to

18.

recall any witness, you are standing on the evidence before the Court?” State: “As
of right now, yes your Honor”. (R. 172-176)
Judge Aho has abandoned her judicial neutrality. The Court passed date to
April 2, 2019, no motion to reopen oral evidence filed by State but granted by the
Court (R. 145) clearly, evidence of Court Judge (Aho) became an active participant
by prompting the State and sua sponte recalling a witness. (R. 175-176, R. 145)
The First District Court of Appeal, Florida, entered Judgment, November 20,
2020, Per Curiam Affirmed, the Petitioner’s appeal.

IT

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

hn ruxfiy

//, 2ozl

20,

